FR833282333_EBAY MASTERCARD
T&C DC PDF WF3050789A, WF3050789B, WF3050789C
6/2021

SYNCHRONY BANK
SECTION I: RATES AND FEES TABLE
EBAY MASTERCARD® ACCOUNT AGREEMENT
PRICING INFORMATION
Interest Rates and Interest Charges
The APR for purchases is the prime rate plus (i) 16.74% for Account Type 1, or (ii) 20.74% for Account
Type 2, or (iii) 23.74% for Account Type 3.

Annual Percentage
Rate (APR) for
Purchases

This APR will vary with the market based on the Prime Rate.

APR for Cash
Advances

29.99%

Paying Interest

Your due date is at least 23 days after the close of each billing cycle. We will not charge you any interest
on purchases if you pay your entire balance by the due date each month. We will begin charging interest
on cash advances on the transaction date.

Minimum Interest
Charge

If you are charged interest, the charge will be no less than $2.00.

Fees
Transaction Fees
• Cash Advance
• Foreign Transaction

Either $10 or 5% of the amount of each cash advance, whichever is greater.
3% of each transaction.

Penalty Fees
• Late Payment
• Returned Payment

Up to $40.
$29

How We Will Calculate Your Balance: We use a method called “daily balance.” See your credit card account agreement below for
more details.

SECTION II: RATES, FEES AND PAYMENT INFORMATION
EBAY MASTERCARD® ACCOUNT AGREEMENT
How Interest is Calculated
Your Interest
Rate

We use a daily rate to calculate the interest on the balance on your account each day. The daily rate is the applicable APR times 1/365.
Interest will be imposed in amounts or at rates not in excess of those permitted by applicable law.
For Account Type 1:
The APR for purchases is the prime rate plus 16.74%. As of March 1, 2021, the daily rate for purchases was .05477% (APR 19.99%).
For Account Type 2:
The APR for purchases is the prime rate plus 20.74%. As of March 1, 2021, the daily rate for purchases was .06573% (APR 23.99%).
For Account Type 3:
The APR for purchases is the prime rate plus 23.74%. As of March 1, 2021, the daily rate for purchases was .07395% (APR 26.99%).
Daily Rates May Vary. The APRs and the daily rates on your account vary with the market based on the prime rate. The prime rate for
a billing cycle is the highest bank prime loan rate published in The Wall Street Journal in its Money Rates section on the last business day
of the calendar month preceding the first day of the billing cycle.
If the prime rate increases, the daily rates and APRs will increase. As a result, interest, your total minimum payment and the number of
payments it would take you to pay off your account balance may increase. We apply any change in rates because of a prime rate change
to your entire account balance. A change in the prime rate will take effect on the first day of the first billing cycle after the change. We may
select a new interest rate index if the prime rate is not available.
The daily rate for cash advances is .08217% (APR 29.99%).

1

When We
Charge Interest

Purchases. We charge interest on your purchases from the date you make the purchase until you pay the purchase in full. See
exceptions below.
• We will not charge you interest during a billing cycle on any purchases if:
1. You had no balance at the start of the billing cycle; OR
2. You had a balance at the start of the billing cycle and you paid that balance in full by the due date in that billing cycle.
• We will credit, as of the start of the billing cycle, any payment you make by the due date that we allocate to purchases if:
1. You had no balance at the start of the previous billing cycle; OR
2. You had a balance at the start of the previous billing cycle and you paid that balance in full by the due date in the previous
billing cycle.
Cash Advances. We charge interest on your cash advances, and their related fees, from the date you make the transaction until you
pay them in full. You cannot avoid paying interest on cash advances or their related fees.

How We
Calculate
Interest

We figure the interest charge on your account separately for each balance type. We do this by applying the daily rate to the daily balance
for each day in the billing cycle. A separate daily balance is calculated for the following balance types, as applicable: purchases, cash
advances and balances subject to different interest rates, plans or special promotions. See below for how this works.
1. How to get the daily balance: We take the starting balance each day, add any new charges and fees, and subtract any payments
or credits. This gives us the daily balance.
We apply fees to balance types as follows:
(a) late payment fees or returned payment fees are treated as new purchases;
(b) debt cancellation fees are added proportionately to each balance;
(c) cash advance fees are added to the cash advance balance; and
(d) foreign transaction fees are added to the purchase balance.
2. How to get the daily interest amount: We multiply each daily balance by the daily rate that applies.
3. How to get the starting balance for the next day: We add the daily interest amount in step 2 to the daily balance from step 1.
4. How to get the interest charge for the billing cycle: We add all the daily interest amounts that were charged during the billing cycle.
We charge a minimum of $2.00 of interest in any billing cycle in which you owe interest. This charge is added proportionately to each
balance type.

How Fees Work
Cash Advance
Fee

We will charge this fee for each cash advance you make. For ATM cash advances this fee is in addition to any fee the ATM owner may
charge you for use of the ATM.

Foreign
Transaction Fee

We will charge this fee for purchases or cash advances you make in currencies other than U.S. dollars and/or in a country other than the
U.S., whether or not the transaction was in a foreign currency.
If you make a transaction with your account in a currency other than U.S. dollars, Mastercard will convert the transaction amount into
U.S. dollars using its currency conversion procedure. Under the currency conversion procedure that Mastercard currently uses, the
non-U.S. dollar transaction amount is converted into a U.S. dollar amount by multiplying the transaction amount in the non-U.S. dollar
currency by a currency conversion rate. Mastercard’s currency conversion procedure is based on rates observed in the wholesale market
or government-mandated rates, where applicable. The currency conversion rate that Mastercard uses for a particular transaction is the
rate for the applicable currency on the date that the transaction occurred. However, in limited situations, particularly where transaction
submissions to Mastercard for processing are delayed, the currency conversion rate that Mastercard uses may be the rate for the
applicable currency on the date that the transaction is processed.

Late Payment
Fee

We will charge this fee if we do not receive the total minimum payment due on your account by 5 p.m. (ET) on the due date. This fee is
equal to:
1. $29, if you have paid your total minimum payment due by the due date in each of the prior six billing cycles.
OR
2. $40, if you have failed to pay your total minimum payment due by the due date in any one or more of the prior six billing cycles.
The late payment fee will not be more than the total minimum payment that was due.

Returned
Payment Fee

We will charge this fee if any check, other instrument, or electronic payment authorization you provide us in payment on your account, is
not honored, returned unpaid or cannot be processed for any reason. This fee is equal to $29. The returned payment fee will not be more
than the amount permitted by applicable law.

Minimum Payment Calculation
Your total minimum payment is calculated as follows.
The greater of:
1. $29, or $40 (which includes any past due amounts) if you have failed to pay the total minimum payment due by the due date in any one or more of the prior
six billing cycles.
OR
2. The sum of:
a. Any past due amounts; PLUS
b. 1% of your new balance shown on your billing statement (excluding any balance in connection with a special promotional purchase with a unique payment
calculation); PLUS
c. Any late payment fees charged in the current billing cycle; PLUS
d. All interest charged in the current billing cycle; PLUS
e. Any payment due in connection with a special promotional purchase with a unique payment calculation.
We round up to the next highest whole dollar in figuring your total minimum payment. Your total minimum payment will never be more than your new balance.

2

SECTION III: STANDARD PROVISIONS
EBAY MASTERCARD® ACCOUNT AGREEMENT
ABOUT THE CREDIT CARD ACCOUNT AGREEMENT
This Agreement. This is an Agreement between you and Synchrony Bank, 170 Election Road, Suite 125, Draper, UT 84020, for your credit card account shown
above. By opening or using your account, you agree to the terms of the entire Agreement. The entire Agreement includes the four sections of this document and
the application you submitted to us in connection with the account. These documents replace any other agreement relating to your account that you or we made
earlier or at the same time.
Parties To This Agreement. This Agreement applies to each accountholder approved on the account and each of you is responsible for paying the full amount
due, no matter which one uses the account. We may treat each of you as one accountholder and may refer to each of you as “you” or “your.” Synchrony Bank
may be referred to as “we,” “us” or “our.”
Changes To This Agreement. We may change, add or delete terms of this Agreement, including interest rates, fees and charges.
Special Promotions. The terms of this Agreement apply to any special promotion. However, any special promotional terms that are different than the terms in
this Agreement will be explained on promotional advertising or other disclosures provided to you.

HOW TO USE YOUR ACCOUNT/CARD
Use Of Your Account. You may use your account only for lawful personal, family or household purposes. You may use your eBay Mastercard for purchases
of goods and services from any merchant that accepts Mastercard credit cards. You may get cash advances as further explained below. You may not use your
account to pay amounts you owe us on this account or any other account you have with us.
Cash Advances. We may offer you the opportunity to get a cash advance with convenience checks that we send you. We may not honor a convenience check
for any reason stated on the check. You can also get cash or make a withdrawal from any institution or ATM that accepts the card or the account. In addition,
we will treat any purchase of certain cash like items as cash advances. Cash like items include for example, money orders, cashier’s checks, traveler’s checks,
electronic or wire transfers, foreign currency or other in-bank transactions, tax payments, lottery tickets or other legalized gambling transactions, court costs, bail
bonds and fines.
You Promise To Pay. You promise to pay us for all amounts owed to us under this Agreement.
Your Responsibility. Each accountholder will receive a card. You may not allow anyone else to use your account. If you do, or if you ask us to send a card to
someone else, you will be responsible for paying for all charges resulting from their transactions.
Transaction Limits. To prevent fraud, we may limit the number or dollar amount of any type of transactions you can make in any particular amount of time. We
also may decline any particular charge on your account for any reason.
Credit Limit. You will be assigned a credit limit and cash advance limit on your account that we may increase or decrease from time to time. If we approve a
transaction that makes you go over your credit limit or your cash advance limit, we do not give up any rights under this Agreement and we do not treat it as an
increase in either limit.

HOW AND WHEN TO MAKE PAYMENTS
When Payments Are Due. You must pay at least the total minimum payment due on your account by 5 p.m. (ET) on the due date of each billing cycle. Payments
received after 5 p.m. (ET) will be credited as of the next day. You may at any time pay, in whole or in part, the total unpaid balance without any additional charge
for prepayment. If you have a balance subject to interest, earlier payment may reduce the amount of interest you will pay. We may delay making credit available
on your account in the amount of your payment even though we will credit your payment when we receive it.
Payment Options. You can pay by mail or online. We may allow you to make payments over the phone but we will charge you a fee to make expedited
phone payments. Your payment must be made in U.S. dollars by physical or electronic check, money order or a similar instrument from a bank located in the
United States.
How To Make A Payment. You must follow the instructions for making payments provided on your billing statement. If you do not, credit of your payment may
be delayed up to five days. Your billing statement also explains how information on your check is used.
Payment Allocation. We will apply the required total minimum payment to balances on your account using any method we choose. Any payment you make in
excess of the required total minimum payment will be applied to higher APR balances before lower APR balances. Applicable law may require or permit us to apply
excess payments in a different manner in certain situations, such as when your account has a certain type of special promotion.

INFORMATION ABOUT YOU
Using And Sharing Your Information. When you applied for an account, you gave us and eBay, Inc. information about yourself that we could share with
each other. eBay, Inc. will use the information in connection with the credit program and for things like creating and updating its records and offering you special
benefits. More information about how we use and share information is set forth in the privacy policy for your account.
Address/Phone Change. You represent that any phone number that you provide to us belongs to you and/or that you are authorized to provide that number.
You also agree to tell us right away if you change your address or any phone number.
Consent To Communications. You consent to us, as well as any other owner or servicer of your account, contacting you through any channel of communication
and for any purpose, as permitted by applicable law. For informational, servicing, fraud, or collection related communications, you agree that we may use the
phone numbers that you provide to us to contact your cellular phone or wireless device with text messages, artificial or prerecorded voice calls, and calls made by
an automatic telephone dialing system. Text frequency may vary and may be recurring. This consent applies even if you are charged for the call under your plan.
You are responsible for any charges that may be billed to you by your communications carrier when we contact you. Message and data rates may vary. We and
any carrier are not liable for delayed or undelivered messages. If you have questions, please call the number on the back of your card.
Telephone Monitoring. For quality control, you allow us to listen to and/or record telephone calls between you and us.
Consent to Electronic Disclosures. When you applied for this Account, you agreed to receive Electronic Communications from us regarding your Account,
which may include disclosures required by applicable federal or state law (collectively, “Communications”). These Communications include the Agreement,
Statements and Privacy Policy, disclosures relating to any optional debt cancellation product you elect to purchase, including, without limitation, any Truth
in Lending Act disclosures and other federal and state law disclosures, notices and communications in connection with the application for, the opening of,
maintenance or collection of an Account. Communications may be sent to your email address. Communications may include your name and some information
about your Account, including your balance or the due date for your payment. Electronic Communications may be disclosed to any party with access to your
Account or email account or hardware or software used to view your Account or email account. At our option, we may provide you with paper Communications,
such as paper Statements. In addition, if we provide you with paper Statements, we may switch to providing you with electronic Statements instead upon notice
to you, unless you have withdrawn your consent to receive Electronic Communications as set forth below. You may withdraw your consent to receive Electronic
3

Communications and elect to receive paper Communications by writing to P.O. Box 965004, Orlando, FL 32896-5004. However, if you do so, we may close your
Account to future Purchases and Cash Advances and you will be required to pay off any balances under the terms that apply to your Account at the time you
withdraw your consent.

IMPORTANT INFORMATION ABOUT YOUR ACCOUNT
Closing Your Account. You may close your account at any time by sending a letter to the address shown on your billing statement or calling customer service.
We may close your account at any time, for any reason. If your account is closed, you must stop using it. You must still pay the full amount you owe and this
Agreement will remain in effect until you do.
Collection Costs. If we ask an attorney who is not our salaried employee to collect your account, we may charge you our collection costs. These include court
costs and reasonable attorneys’ fees.
Credit Bureau Reporting. We may report information about your account to credit bureaus. Late payments, missed payments, or other defaults on your
account may be shown in your credit report. Tell us if you think we reported wrong information about you to a credit bureau. Write to us at P.O. Box 965005,
Orlando, FL 32896-5005. Tell us what information is wrong and why you think it is wrong. If you have a copy of the credit report that includes the wrong information,
send us a copy.
Default. You are in default if you make a late payment, do not follow any other term of this Agreement or become bankrupt or insolvent. If you default or upon your
death, we may (a) request payment of the full amount due right away, (b) take legal action to collect the amounts owed, and/or (c) take any other action allowed.
Disputed Amounts. The billing rights summary in section IV of this Agreement describes what to do if you think there is a mistake on your bill. If
you send us correspondence about a disputed amount or payment, you must send it to the address for billing inquiries. We do not give up any
rights under this Agreement if we accept a payment marked “payment in full” or given with any other conditions or limitations.
Unauthorized Use. If your card is lost, stolen or used without your consent, call us immediately at 1-844-435-0237. You will not be liable for unauthorized use
on your account, but you will be responsible for all use by anyone you give your card to or allow to use your account.

IMPORTANT INFORMATION ABOUT THIS AGREEMENT
Assignment. We may sell, assign or transfer any or all of our rights or duties under this Agreement or your account, including our rights to payments. We do not
have to give you prior notice of such action. You may not sell, assign or transfer any of your rights or duties under this Agreement or your account.
Enforceability. If any part of this Agreement is found to be void or unenforceable, all other parts of this Agreement will still apply.
Governing Law. Except as provided in the Resolving a Dispute with Arbitration section, this Agreement and your account are governed by federal law and, to the
extent state law applies, the laws of Utah without regard to its conflicts of law principles. This Agreement has been accepted by us in Utah.
Waiver. We may give up some of our rights under this Agreement. If we give up any of our rights in one situation, we do not give up the same right in another situation.

RESOLVING A DISPUTE WITH ARBITRATION
PLEASE READ THIS SECTION CAREFULLY. IF YOU DO NOT REJECT IT, THIS SECTION WILL APPLY TO YOUR ACCOUNT, AND MOST DISPUTES
BETWEEN YOU AND US WILL BE SUBJECT TO INDIVIDUAL ARBITRATION. THIS MEANS THAT: (1) NEITHER A COURT NOR A JURY WILL RESOLVE
ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING; (3) LESS INFORMATION WILL
BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE LIMITED.
1. CLAIMS AND PARTIES. If either you or we make a demand for arbitration, you and we must arbitrate any dispute or claim between you (including any other
user of your account), and us (including our parents, affiliates, agents, employees, officers, and assignees) that directly or indirectly arises from or relates to your
account, your account Agreement or our relationship, except as noted below. In addition, eBay, Inc. and/or any assignee, agent, or service provider of ours that
collects amounts due on your account are intended beneficiaries of this Arbitration section and may enforce it in full (notwithstanding any state law to the contrary).
2. This Arbitration section broadly covers claims based upon contract, tort, consumer rights, fraud and other intentional torts, negligence, constitution, statute,
regulation, ordinance, common law and equity and claims for money damages and injunctive or declaratory relief, even if they arose before this section took effect.
You may not sell, assign or transfer a claim.
3. Examples of claims subject to arbitration are disputes about an account transaction, fees, charges or interest, the events leading up to the Agreement (such as
any disclosures, advertisements, promotions or oral or written statements, warranties or representations made by us), an application for or denial of credit, any
product or service provided by us or third parties in connection with the Agreement, credit reporting, benefit programs related to your account including any
reward program, the collection of amounts due by our assignees, service providers, or agents and the manner of collection.
4. However, we will not require you to arbitrate any individual case in small claims court or your state’s equivalent court, so long as it remains an individual case in
that court. Also, even if all parties have opted to litigate a claim in court, you or we may elect arbitration with respect to any claim made by a new party or any claim
later asserted by a party in any related or unrelated lawsuit, including modifying an individual claim to assert a class, representative or multi-party claim. Arbitration
may be requested at any time, even where there is a pending lawsuit, unless a trial has begun, or a final judgment entered.
5. Only a court will decide disputes about the validity, enforceability, coverage or scope of this Arbitration section or any part thereof. However, any dispute that
concerns the validity or enforceability of the Agreement as a whole is for the arbitrator to decide.
6. NO CLASS ACTIONS. IF EITHER YOU OR WE ELECT TO ARBITRATE A CLAIM, NEITHER YOU NOR WE WILL HAVE THE RIGHT (A) TO PARTICIPATE IN
A CLASS ACTION, PRIVATE ATTORNEY GENERAL ACTION OR OTHER REPRESENTATIVE ACTION IN COURT OR IN ARBITRATION, EITHER AS A CLASS
REPRESENTATIVE OR CLASS MEMBER, OR (B) TO JOIN OR CONSOLIDATE CLAIMS WITH CLAIMS OF ANY OTHER PERSONS EXCEPT ACCOUNTHOLDERS
ON YOUR ACCOUNT. THUS, YOU MAY NOT BRING CLAIMS AGAINST US ON BEHALF OF ANY ACCOUNTHOLDER WHO IS NOT AN ACCOUNTHOLDER
ON YOUR ACCOUNT, AND YOU AGREE THAT ONLY ACCOUNTHOLDERS ON YOUR ACCOUNT MAY BE JOINED IN A SINGLE ARBITRATION WITH ANY
CLAIM YOU HAVE.
7. PROCEDURES. The party who wants to arbitrate must notify the other party in writing. This notice can be given after the beginning of a lawsuit or in papers filed in
the lawsuit. Otherwise, your notice must be sent to Synchrony Bank, Legal Operation, P.O. Box 29110, Shawnee Mission, KS 66201-5320, ATTN: ARBITRATION
DEMAND. The party seeking arbitration must select either the American Arbitration Association (AAA), 120 Broadway, Floor 21, New York, NY 10271,
www.adr.org, or JAMS, 620 Eighth Avenue, 34th Floor, New York, NY 10018, www.jamsadr.com, to administer the arbitration. If neither administrator can handle
the dispute, a court with jurisdiction will appoint an arbitrator.
8. The arbitration administrator will appoint the arbitrator and will tell the parties what to do next. The arbitrator must be a lawyer with at least ten years of legal
experience. The arbitrator must apply the same law, consistent with the Federal Arbitration Act (FAA), that would apply to an individual action in court, but may
use different procedural rules. The arbitrator will apply the same statutes of limitation and privileges that a court would apply if the matter were pending in court.
9. The arbitrator may award any damages or other relief or remedies that would apply under applicable law to an individual action brought in court, including, without
limitation, punitive damages (governed by the Constitutional standards employed by the courts) and injunctive, equitable and declaratory relief (but only in favor
of the individual party seeking relief and only to the extent necessary to provide relief warranted by that party’s individual claim). The parties will bear the fees and
costs of their attorneys, witnesses and experts. However, the arbitrator will have the authority to award fees and costs of attorneys, witnesses and experts to the
extent permitted by the Agreement, the administrator’s rules or applicable law.
4

10. The arbitration will take place by phone or at a location reasonably convenient to you. If you ask, we will pay all the fees the administrator or arbitrator charges if
you cannot obtain a waiver of fees from the administrator and are acting in good faith. We will always pay arbitration costs required by the administrator’s rules or
that are necessary for this Arbitration section to be enforced.
11. G
 OVERNING LAW. This Arbitration section is governed by the FAA. Utah law shall apply to the extent state law is relevant under the FAA, unless otherwise
stated herein. The arbitrator’s award will be final and binding, except for any appeal right under the FAA. Any court with jurisdiction may enter judgment upon
the arbitrator’s award. The arbitration award and any judgment confirming it will apply only to the specific case and cannot be used in any other case except to
enforce the award.
12. S
 URVIVAL. This Arbitration section shall survive the repayment of all amounts owed, the termination, cancellation or suspension of the Agreement or your account
or credit privileges, any legal proceeding, and any bankruptcy by you, to the extent consistent with applicable bankruptcy law. If this Arbitration section conflicts
with the applicable arbitration rules or the other provisions of the Agreement, this Arbitration section shall govern.
13. S
 EVERABILITY. If any portion of this Arbitration section is held to be invalid or unenforceable, the remaining portions shall nevertheless remain in force with the
following two exceptions. First, if a determination is made that the “No Class Actions” provision is unenforceable, and that determination is not reversed on appeal,
then this Arbitration section shall be void in its entirety. Second, if a court determines that a public injunctive relief claim may proceed notwithstanding the “No Class
Actions” provision, and that determination is not reversed on appeal, then the public injunctive relief claim will be decided by a court, and any individual claims will
be arbitrated. The parties will ask the court to stay the public injunctive relief claim until the other claims have been finally concluded.
14. H
 OW TO REJECT ARBITRATION. You may reject this Arbitration section. If you do that, a court will resolve any dispute or claim. To reject this section, send
us a notice within 45 days after you open your account or we first provided you with your right to reject this section. The notice must include your name, address,
account number, and personal signature, and must be mailed to Synchrony Bank, P.O. Box 965012, Orlando, FL 32896-5012. This is the only way you can reject
this section. Rejecting this Arbitration section will not affect any other provision of the Agreement. It will also not affect any prior arbitration agreement or dispute
resolution provision between you and us, which will remain in full force and effect. If you don’t reject this Arbitration section, it will be effective as of the date of the
Agreement and will supersede any prior arbitration agreement between you and us that would otherwise be applicable.

SECTION IV: OTHER IMPORTANT INFORMATION
EBAY MASTERCARD® ACCOUNT AGREEMENT
This section of the agreement includes state notices, billing rights summary and rewards terms (if applicable) and is not required to be provided as part of the credit card
agreement posted online or provided to the CFPB.

FR833282333_EBAY MASTERCARD
T&C DC PDF WF3050789A, WF3050789B, WF3050789C
6/2021
5

